No. 20-443
IN THE

Supreme Court of the United States
UNITED STATES OF AMERICA,
Petitioner,

v.
DZHOKHAR A. TSARNAEV,

Respondent.
On Writ of Certiorari to the United States
Court of Appeals for the First Circuit
CERTIFICATE OF SERVICE
I, William M. Jay, counsel of record and a member of the Bar of this Court,
certify pursuant to Supreme Court Rules 29.3 and 29.5 that I have, this 21st day of
June, 2021, served three copies of the Brief for the National Fraternal Order of
Police as Amicus Curiae Supporting Petitioner upon each party separately
represented in this proceeding by causing them to be deposited with the U.S. Postal
Service, with first-class postage prepaid, addressed to counsel of record at the
addresses listed below:
Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Ave., N.W., Room 5616
Washington, DC 20530
SupremeCtBriefs@usdoj.gov

Ginger D. Anders
Munger, Tolles & Olson LLP
601 Massachusetts Ave., N.W.
Washington, DC 20001
ginger.anders@mto.com

Counsel of Record for Petitioner

Counsel of Record for Respondent

Pursuant to Supreme Court Rule 29.3, electronic copies of the amicus brief
are being transmitted to counsel of record at the email addresses listed above. I
further certify that all persons required to be served have been served.
In addition, pursuant to Supreme Court Rule 29.7, I certify that I have
caused electronic copies of the brief to be filed with the Clerk.

June 21, 2021
WILLIAM M. JAY
GOODWIN PROCTER LLP
1900 N Street, N.W.
Washington, DC 20036
wjay@goodwinlaw.com
(202) 346-4190
Counsel of Record for Amicus Curiae

